THE CITY OF NEW YORK
JAMES E. JOHNSON
Corporation Counsel

LAW DEPARTMENT

DEVIN SLACK
(212) 356-0817
dslack@law.nyc.gov

100 CHURCH STREET
NEW YORK, NY 10007

December 24, 2020
Hon. Scott Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re:

Larry Thompson v. Pagiel Clark, et al., No. 20-659

Dear Mr. Harris:
I write on behalf of respondents Pagiel Clark, Paul Montefusco, Phillip Romano,
and Gerard Bouwmans to request an extension of time to oppose the petition for a
writ of certiorari in this matter. The current deadline is January 4, 2021, and we
respectfully seek an extension of thirty days—to and including February 3, 2021.
Petitioner consents to this request. Thank you for your consideration.

Respectfully,

Devin Slack
Assistant Corporation Counsel
cc:

Amir H. Ali, Esq.

